( -f-
  ~,.,tl SEnV'C'~.o3'




<",,,<.::i.
                         DEPARTMENT OF HEALTH & IRJMAN SERVICES                                 Office of Inspector General


                                                                                                Washington, D.C.	 20201




                                                        JUL f 7 2009
                  TO:	          Charlene Frizzera

                                Acting Administrator

                                Centers for Medicare & Medicaid Services



                  FROM:
                                        r:;~
                                 oseph E. Vengrin

                                Deputy Inspector General for Audit Services



                  SUBJECT:       Review of New Jersey's Compliance With the "Reimbursement of State Costs for
                                 Provision of Part D Drugs" Medicare Demonstration Project Requirements
                               . (A-02-08-01007)


                  Attached is an advance copy of our final report on New Jersey's compliance with the
                  "Reimbursement of State Costs for Provision of Part D Drugs" Medicare demonstration project
                  requirements. We will issue this report to the New Jersey Department of Human Services (DHS)
                  within 5 business days.

                  On February 14,2006, New Jersey submitted its "Section 402 Demonstration Application"
                  (Medicare demonstration application) to the Centers for Medicare & Medicaid Services (CMS).
                  By submitting its Medicare demonstration application, New Jersey agreed to pay for full-benefit
                  dually eligible beneficiaries' drug claims overseen by DHS. DHS's participation in the
                  demonstration project covered drug claims with dates of service from January 1 through
                  March 31, 2006, and related administrative costs from January 1 through June 30, 2006.

                  CMS reimbursed DHS a total of $79,200,390 for Medicare demonstration project costs. DHS
                  included $79,012,142 of this amount on its Medicaid Forms CMS-64. DHS officials stated that
                  they planned to adjust the Forms CMS-64 after receiving reimbursement through the
                  demonstration project.

                  Our objectives wereto determine whether DRS (1) complied with certain provisions of the
                  Medicare demonstration application when claiming drug costs for full-benefit dually eligible
                  beneficiaries and (2) claimed drug and administrative costs to both the Medicaid program and the
                  Medicare demonstration project.

                  DRS complied with certain provisions ofthe Medicare demonstration application when claiming
                  drug costs for full-benefit dually eligible beneficiaries. However, DRS claimed some drug and
                  administrative costs to both the Medicaid program and the Medicare demonstration project. Of
                  the $79,012,142 that DHS was reimbursed through the Medicare demonstration project and that
Page 2 – Charlene Frizzera


it included on its Medicaid Forms CMS-64, DHS accurately adjusted its Forms CMS-64 to
reflect $67,760,577 ($33,880,289 Federal share) for some drug costs. However, DHS did not
adjust its Forms CMS-64 to reflect $11,251,565 ($5,752,077 Federal share) for additional
demonstration project costs. According to DHS officials, DHS did not adjust its Forms CMS-64
to account for some of its drug costs and most of its administrative costs paid through the
Medicare demonstration project because of a clerical oversight.

We recommend that DHS refund $5,752,077 to the Federal Government for improper Medicaid
drug claim payments ($5,175,985) and administrative cost payments ($576,092). We are not
making any procedural recommendations because the demonstration project has ended.

In its comments on our draft report, DHS said that it would adjust its expenditure reports in
accordance with our recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-01007.


Attachment
                                                                            .Office OIlnupeotor General
                                                                           .OftlCe or Audit services
             DEPARTMENT OF HEALTH & HUMAN SIiJlVlCES

                                                                            -Reglonll .
                                                                            ,Jacob K. ".vb Fllderal Building
                                    JUl 2 1 2009                             28F1dlllll'laa
                                                  ~,
                                                                            .NN YOJt. NY 1G21'8 .
Report Number: A-02-08-01007

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, New Jersey 06825-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of New Jersey's Compliance With the
'Reimbursement of State Costs for Provision of Part D Drugs' Medicare Demonstration Project
Requirements." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard Schlitt, Audit Manager, at (212) 264-4817 or through email at
Richard.Schlitt@oig.hhs.gov. Please refer to report number A-02-08-01007 in all
correspondence.

                                              Sincerely,

                                           rf,E~
                                              ] ames P. Edert
                                              Regional Inspector General
                                                 for Audit Services


Enclosure
Page 2 – Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Mr. Jonathan Blum
Acting Director
Center for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
200 Independence Avenue SW.
314-G, HHH Building
Washington, DC 20201
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF NEW JERSEY’S
    COMPLIANCE WITH THE
  “REIMBURSEMENT OF STATE
    COSTS FOR PROVISION OF
   PART D DRUGS” MEDICARE
   DEMONSTRATION PROJECT
        REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-02-08-01007
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure a smooth
transition to Medicare Part D, some full-benefit dually eligible beneficiaries did not enroll in or
were not assigned to a Part D plan. As a result, some States paid for these beneficiaries’
Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). On February 14, 2006, New Jersey submitted its “Section 402
Demonstration Application” (Medicare demonstration application) to CMS. By submitting its
Medicare demonstration application, New Jersey agreed to pay for full-benefit dually eligible
beneficiaries’ drug claims overseen by the Department of Human Services (DHS). DHS’s
participation in the demonstration project covered drug claims with dates of service from
January 1 through March 31, 2006, and related administrative costs from January 1 through
June 30, 2006.

CMS reimbursed DHS a total of $79,200,390 for Medicare demonstration project costs. DHS
included $79,012,142 of this amount on its Medicaid Forms CMS-64. DHS officials stated that
they planned to adjust the Forms CMS-64 after receiving reimbursement through the
demonstration project.

OBJECTIVES

Our objectives were to determine whether DHS (1) complied with certain provisions of the
Medicare demonstration application when claiming drug costs for full-benefit dually eligible
beneficiaries and (2) claimed drug and administrative costs to both the Medicaid program and the
Medicare demonstration project.




                                                  i
SUMMARY OF FINDINGS

DHS complied with certain provisions of the Medicare demonstration application when claiming
drug costs for full-benefit dually eligible beneficiaries. For example, DHS ensured that claims
were for covered Part D drugs and for drug costs incurred during the demonstration project’s
effective dates.

However, DHS claimed some drug and administrative costs to both the Medicaid program and
the Medicare demonstration project. Of the $79,012,142 that DHS was reimbursed through the
Medicare demonstration project and that it included on its Medicaid Forms CMS-64, DHS
accurately adjusted its Forms CMS-64 to reflect $67,760,577 ($33,880,289 Federal share) for
some drug costs. However, DHS did not adjust its Forms CMS-64 to reflect $11,251,565
($5,752,077 Federal share) for additional demonstration project costs. According to DHS
officials, DHS did not adjust its Forms CMS-64 to account for some of its drug costs and most of
its administrative costs paid through the Medicare demonstration project because of a clerical
oversight.

RECOMMENDATION

We recommend that DHS refund $5,752,077 to the Federal Government for improper Medicaid
drug claim payments ($5,175,985) and administrative cost payments ($576,092). We are not
making any procedural recommendations because the demonstration project has ended.

DEPARTMENT OF HUMAN SERVICES COMMENTS

In its comments on our draft report, DHS said that it would adjust its expenditure reports in
accordance with our recommendation. DHS’s comments are included as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Prescription Drug Benefit.........................................................1
              Full-Benefit Dually Eligible Beneficiaries ..........................................................1
              Medicare Part D Demonstration Project ..............................................................1
              New Jersey’s Participation in the Medicare Part D Demonstration Project ........2

          OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................3
               Objectives ............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATION...............................................................................4

          DEMONSTRATION PROJECT DRUG CLAIMS.........................................................4

          DEMONSTRATION PROJECT DRUG AND ADMINISTRATIVE COSTS ..............5

          RECOMMENDATION ...................................................................................................5

          DEPARTMENT OF HUMAN SERVICES COMMENTS.............................................5

APPENDIX

          DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-
benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. For example, if a beneficiary did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned the beneficiary to a plan. In addition, to facilitate
enrollment of dually eligible beneficiaries at the point of sale, CMS implemented a new
eligibility inquiry process for pharmacies to verify Part D plan assignments and employed
contractors.

Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually
eligible beneficiaries did not enroll in or were not assigned to a Part D plan. As a result, some
States paid for these beneficiaries’ Medicare Part D drugs during the transition period.

Medicare Part D Demonstration Project

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the “Reimbursement of State Costs for Provision of Part D Drugs”
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable
to Part D in § 1860D-42(b)). The demonstration project permitted Medicare to fully reimburse
States for full-benefit dually eligible beneficiaries’ Part D drugs to the extent that the costs were
not recoverable from a Medicare Part D plan. 1

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed “Section 402 Demonstration Application” (Medicare
demonstration application) to CMS. By submitting Medicare demonstration applications, States
agreed to (1) require pharmacies to bill the Part D plan before relying on State payment (i.e., the

1
 In addition, the demonstration project provided payments to States for low-income subsidy-entitled beneficiaries’
(partial-benefit dually eligible beneficiaries) Part D drugs and for certain administrative costs.


                                                         1
State was the payer of last resort); (2) provide specific information to CMS on Part D drug
claims and administrative costs; (3) ensure that claims submitted were for covered Part D drugs;
(4) separate demonstration project claims from those payable under other programs; (5) submit
claims only for drug costs (not including beneficiary cost sharing) and administrative costs
incurred during the demonstration project’s effective dates; (6) report to CMS the number of
claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that Medicare funding
was not used as State Medicaid matching funds (State Medicaid Director Letter No. 06-001
(Feb. 2, 2006); CMS, Section 402 Demonstration Application Template: Reimbursement of
State Costs for Provision of Part D Drugs).

CMS required States to submit demonstration project claims directly to its contractor, Public
Consulting Group, which determined whether the claims were eligible for reimbursement. CMS
then reimbursed States for eligible claims.

New Jersey’s Participation in the Medicare Part D Demonstration Project

On February 14, 2006, New Jersey, through two of its agencies, the Department of Human
Services (DHS) and the Department of Health and Senior Services (DHSS), submitted its
Medicare demonstration application to CMS. New Jersey agreed to pay for full-benefit dually
eligible beneficiaries’ drug claims (overseen by DHS) and for partial-benefit Part D enrollees
entitled to assistance from New Jersey’s State Pharmaceutical Assistance Programs (SPAP)
(overseen by DHSS). 2 DHS’s participation in the demonstration project covered drug claims
with dates of service from January 1 through March 31, 2006, and related administrative costs
from January 1 through June 30, 2006.

DHS processed drug claims for full-benefit dually eligible beneficiaries through its Medicaid
point-of-sale system and claimed the amounts on its Forms CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program,” which CMS subsequently
reimbursed at New Jersey’s Federal medical assistance percentage (FMAP). 3 DHS officials
stated that they planned to adjust the Forms CMS-64 after receiving reimbursement through the
demonstration project. CMS officials were aware that some States had submitted demonstration
project costs previously claimed on the Forms CMS-64 and orally advised the States to
appropriately adjust their Forms CMS-64 to remove claims paid by Medicare.

DHS submitted demonstration project claims for drug costs and administrative costs incurred on
behalf of full-benefit dually eligible beneficiaries to the Public Consulting Group and
subsequently received reimbursement from CMS totaling $79,200,390.




2
 The SPAP-enrolled beneficiaries included Medicare Part D low-income beneficiaries and non-low-income
beneficiaries enrolled in New Jersey’s Senior Gold and Pharmaceutical Assistance to the Aged and Disabled
medical assistance programs.
3
 The FMAP determines the Federal share of the Medicaid program. During our audit period (January 1 through
March 31, 2006), the FMAP for drug claims in New Jersey was 50 percent. During this same period, the FMAP for
administrative costs ranged from 50 to 100 percent.


                                                       2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether DHS (1) complied with certain provisions of the
Medicare demonstration application when claiming drug costs for full-benefit dually eligible
beneficiaries and (2) claimed drug and administrative costs to both the Medicaid program and the
Medicare demonstration project.

Scope

The audit covered DHS’s 1,537,943 drug claims for full-benefit dually eligible beneficiaries
submitted under the Medicare Part D demonstration project from January 1 through March 31,
2006. We did not review DHS’s drug claims for partial-benefit dually eligible beneficiaries, nor
did we determine whether pharmacies attempted to bill beneficiaries’ Part D plans before relying
on State payment.

The audit also covered DHS’s Medicare demonstration project drug costs for the period
January 1 through March 31, 2006, and administrative costs for the period January 1 through
June 30, 2006, claimed on the Forms CMS-64. CMS reimbursed DHS a total of $79,200,390 for
these Medicare demonstration project costs. DHS included $79,012,142 of this amount on its
Medicaid Forms CMS-64. 4 We did not review whether DHS complied with demonstration
project requirements for administrative costs. We reviewed only those internal controls
necessary to achieve our objectives.

We performed fieldwork at DHS’s offices in Trenton, New Jersey, from April through
September 2008.

Methodology

To accomplish our objectives, we:

      •   reviewed applicable laws, regulations, and guidance;

      •   interviewed DHS officials to (1) obtain an understanding of their process for
          identifying and submitting full-benefit dually eligible beneficiary claims under the
          demonstration project and (2) determine whether they separated demonstration project
          claims from those payable under other programs;

      •   obtained from CMS a database of 1,537,943 drug claims for full-benefit dually eligible
          beneficiaries paid to DHS under the demonstration project for the period January 1
          through March 31, 2006;



4
 The remaining $188,248 comprised drug claims and administrative costs paid to DHS only through the Medicare
program.


                                                      3
     •   reviewed documentation from DHS identifying the administrative costs that CMS paid
         to the State under the demonstration project for the period January 1 through June 30,
         2006;

     •   reconciled the total dollar amount of drug claims that DHS reported on its Forms
         CMS-64 to its computerized claim-processing system for calendar year 2006;

     •   reviewed a judgmentally selected sample of 30 drug claims paid to DHS under the
         demonstration project to determine whether (1) the dates of service were during the
         demonstration project’s effective dates, (2) the drugs were covered by Medicare Part D,
         and (3) any cost-sharing amounts (copayments) on the part of the beneficiary were not
         included in the claim;

     •   reviewed a judgmentally selected sample of 30 beneficiaries whose drug claims were
         paid under the demonstration project to determine whether these beneficiaries were
         dually eligible; and

     •   reviewed guidance issued by DHS to the pharmacies, including guidance requiring
         them to submit Part D-eligible drug claims to Part D plans before billing DHS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

DHS complied with certain provisions of the Medicare demonstration application when claiming
drug costs for full-benefit dually eligible beneficiaries. However, DHS claimed some drug and
administrative costs to both the Medicaid program and the Medicare demonstration project.

DEMONSTRATION PROJECT DRUG CLAIMS

DHS complied with certain provisions of the Medicare demonstration application when claiming
drug costs for full-benefit dually eligible beneficiaries. Specifically, DHS (1) provided specific
information to CMS on Part D drug claims; (2) ensured that claims submitted were for covered
Part D drugs; (3) separated demonstration project claims from those payable under other
programs; (4) submitted claims only for drug costs incurred during the demonstration project’s
effective dates; and (5) reported to CMS the number of claims, beneficiaries, and expenditures
on a timely basis.




                                                4
DEMONSTRATION PROJECT DRUG AND ADMINISTRATIVE COSTS

Pursuant to Office of Management and Budget Circular A-87, “Cost Principles for State, Local,
and Indian Tribal Governments,” Att. A, §§ C.2.a and C.3.a (2 CFR, pt. 225, App. A, §§ C.2.a
and C.3.a), costs submitted under a Federal award must be reasonable and allocable to the
Federal award.

Of the $79,012,142 that DHS was reimbursed through the Medicare demonstration project and
that it included on its Medicaid Forms CMS-64, DHS accurately adjusted its Forms CMS-64 to
reflect $67,760,577 ($33,880,289 Federal share) for some drug costs. However, DHS did not
adjust its Forms CMS-64 to reflect $11,251,565 ($5,752,077 Federal share) for additional
demonstration project costs. Specifically, DHS did not adjust its Forms CMS-64 to reflect
$10,351,971 ($5,175,985 Federal share) for drug costs and $899,594 ($576,092 Federal share)
for administrative costs.

According to DHS officials, DHS did not adjust its Forms CMS-64 to account for some of its
drug costs and most of its administrative costs paid through the Medicare demonstration project
because of a clerical oversight. The officials stated that DHS would not adjust its Forms
CMS-64 to correct the oversight until DHS received our draft report.

RECOMMENDATION

We recommend that DHS refund $5,752,077 to the Federal Government for improper Medicaid
drug claim payments ($5,175,985) and administrative cost payments ($576,092). We are not
making any procedural recommendations because the demonstration project has ended.

DEPARTMENT OF HUMAN SERVICES COMMENTS

In its comments on our draft report, DHS said that it would adjust its expenditure reports in
accordance with our recommendation. DHS’s comments are included as the Appendix.




                                                 5
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
